HHS/OIG, Audit -"Review of Medicaid Drug Rebate Collections - State of Arkansas,"(A-06-03-00042)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Collections - State of Arkansas," (A-06-03-00042)
May 13, 2003
Complete
Text of Report is available in PDF format (403 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Department of Human
Services (DHS) had established adequate accountability over the Medicaid drug
rebate program.  We found that the DHS generally had established adequate
controls over the drug rebate program as required by federal rules and regulations.
However, we identified one area where the DHS could improve accountability
over drug rebates.  Specifically, the DHS could improve its accounting
for interest payments received from drug manufacturers.  The DHS recorded
interest payments in the Rebate Management System without a corresponding entry
to establish the interest as a receivable.  In addition, the DHS did not
verify that interest payments were accurate.  As a result, the balance
of uncollected rebates was understated by $537,979 (the amount of interest
received) and the DHS cannot be assured that all interest due was paid.  The
DHS agreed with our findings.